WAIVER
SUPREME COURT OF THE UNITED STATES
Supreme Court Case No.

R. David Weisskopf

19-176
v.

Jewish Agency for Israel et al.

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
□ Please enter my appearance as Counsel of Record for all respondents.
□ There are multiple respondents, and I do not represent all respondents.
appearance as Counsel of Record for the following respondent(s):

Please enter my

Please see attached list of respondents.

□ I am a member of the Bar of the Supreme Court of the United States.
□ I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be ﬁled by a Bar member.
Signature

August 19, 2019

Date:

(Type or print) Name

Robert Reeves Anderson
□ Mr.

Firm

□ Ms.

□ Mrs.

□ Miss

Arnold & Porter Kaye Scholer LLP

Address

370 Seventeenth Street, Suite 4400

City & State
Phone

Denver, CO

303.863.2325

Zip
Email

80202-1370

reeves.anderson@arnoldporter.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER’S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
CC:

R. David Weisskopf

WAIVER
Attachment
Re: R. David Weisskopf v. Jewish Agency for Israel et al., No. 19-176
Arnold & Porter represents the following respondents in the above-captioned matter:
Tzipi Livni
Shmuel Chamdani
Na’ama Talman Boltin (listed as Na’ama Boltin)
Miriam Darmony Yazdi (listed as Miriam Darmony)
Einat Gilead-Meshulam
Tomer Moskowitz
Calanit Shapira Bergman (listed as Clanit Bergman)
Noa Regev
Alona Sadeh (listed as Alon Sadeh)
Zeev Gabay (listed as Zev Gabai)
Ariel Lenga (listed as Ariel Lagana)
Orit Avigail Yahalomi
Michael Duwani Bahiri (listed as Michael Duwani)

